<html>
<title> - NOMINATION OF SUE ELLEN WOOLDRIDGE TO BE SOLICITOR, DEPARTMENT OF THE INTERIOR</title>
<body><pre>[Senate Hearing 108-524]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-524

                    SUE ELLEN WOOLDRIDGE NOMINATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

  TO CONSIDER THE NOMINATION OF SUE ELLEN WOOLDRIDGE TO BE SOLICITOR, 
                    U.S. DEPARTMENT OF THE INTERIOR

                               __________

                             MARCH 11, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-750                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     2
Reynolds, David L., Director of Federal Affairs, Association of 
  California Water Agencies, Letter..............................    10
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1
Woolridge, Sue Ellen, Nominee To Be Solicitor, Department of the 
  Interior.......................................................     2

                                APPENDIX

Responses to additional questions................................    11

 
 NOMINATION OF SUE ELLEN WOOLDRIDGE TO BE SOLICITOR, DEPARTMENT OF THE 
                                INTERIOR

                              ----------                              


                        THURSDAY, MARCH 11, 2004

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:32 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. I will call the committee to order please.
    Good afternoon, Ms. Wooldridge.
    Ms. Wooldridge. Good afternoon.
    Senator Thomas. Welcome to this hearing to consider your 
nomination to be Solicitor of the Department of the Interior.
    Rules of the committee, which apply to all nominees, 
require they be sworn in in connection with the testimony. So 
if you would please rise and raise your right hand.
    Do you solemnly swear the testimony you are about the give 
the Senate Committee on Energy and Natural Resources will be 
the truth, the whole truth, and nothing but the truth?
    Ms. Wooldridge. Yes.
    Senator Thomas. Thank you. Please be seated.
    Before you begin your statement, I would ask three 
questions that are addressed, again, to each nominee.
    Will you be available to appear before this committee and 
other congressional committees to represent departmental 
positions and respond to issues of concern to Congress?
    Ms. Wooldridge. Yes, I will.
    Senator Thomas. Are you aware of any personal holdings, 
investments, or interests that could constitute a conflict or 
create the appearance of such a conflict, should you be 
confirmed and assume the office to which you have been 
nominated by the President?
    Ms. Wooldridge. No, Senator. I have reviewed those with 
counselors for the Department and ethics counselors, and with 
regard to my investments and interests, I do not believe there 
are any conflicts of interest.
    Senator Thomas. Great, thank you.
    Are you involved or do you have any assets held in blind 
trusts?
    Ms. Wooldridge. No, I do not.
    Senator Thomas. I know that you have been working for the 
past several years in the Secretary's office. You are aware, of 
course, of the magnitude of the position for which you are 
being considered.
    Ms. Wooldridge. Yes.
    Senator Thomas. My friend, Tom Sansonnetti, left my office 
to do this job sometime back, as a matter of fact.
    Ms. Wooldridge. I am aware of that.
    Senator Thomas. The issues you will have to address are 
extremely important to the States of all us and particularly on 
this committee, and I commend you for being willing to 
undertake this responsibility. At the same time, of course, we 
want you to be mindful of our intense interest in the decisions 
you are making. I encourage you to work closely with each of 
us, and I know that you will.
    Let me turn now to Senator Bingaman.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you very much. I welcome the 
nominee. I had the chance to visit with Ms. Wooldridge earlier 
and had a chance to ask some questions at that time. This is a 
very important position and one that I think this committee 
takes a great interest in. I do have a few questions that I 
will ask when we get to that part of the program here, Mr. 
Chairman. Thank you.
    Senator Thomas. Fine.
    If you would care to go ahead, if you have a statement, 
why, we would be delighted to hear from you.

  TESTIMONY OF SUE ELLEN WOOLDRIDGE, NOMINEE TO BE SOLICITOR, 
                   DEPARTMENT OF THE INTERIOR

    Ms. Wooldridge. Thank you, yes. I have a few remarks.
    Good afternoon to you, Senator Thomas, you, Senator 
Bingaman, members absent of the committee. I want to thank you 
for providing me this opportunity to appear today. It is a 
privilege and I especially wish to thank you both and Senator 
Domenici's staff for all their fine work in helping to get me 
around to meet people before this hearing.
    It is the highest honor of my professional life to have 
been nominated by the President to be the Solicitor of the 
Department of the Interior. I ask your consent to the 
nomination.
    Since my nomination, a number of people have asked me why I 
would like to be the Solicitor of the Department. The simple 
answer is that in the 3 years I have been there, I have 
developed a great appreciation for the mission of the 
Department and I view the Solicitor primarily as a servant to 
assist the Secretary, the management, and the employees of the 
Department in fulfilling their mission.
    The Solicitor's Office handles a wide variety of legal 
matters, as you are aware. As a lawyer, I also have a wide 
variety of legal experience. In my career, among other things, 
I have dealt with the law of insurance, antitrust, contracts, 
trademark, conflicts of interest, endangered species, NEPA, 
elections, employment, CRCLA, FLPMA, nonprofit institutions, to 
name a few. I have come to know well State water law, Federal 
reserved water rights, and reclamation law.
    I have worked on cases large and small in both the State 
and Federal courts. I was intimately involved in the $200 
billion settlement between the States and the tobacco industry. 
I was involved in the largest False Claims Act recovery for the 
State of California, and I also once handled a case involving 
two neighbors fighting over a dog that was barking.
    At the Department of the Interior, I have handled matters 
of national significance, and I have also had the unenviable 
task of assigning office and parking spaces to political 
appointees. As the Secretary's Deputy Chief of Staff and 
Counselor for the last 3 years, I have had the responsibility 
for a number of issues that, due to the cross-cutting nature of 
them and the problems that they had, in the interest of our 
bureaus, who were at times at conflicting purposes, they had to 
be managed at the departmental level. I have also overseen the 
Secretary's Indian Water Rights Office which manages yet 
another set of issues often involving cross-cutting issues of 
interest to the Department.
    On the personal side, there are just two things I would 
like for you to know about me. As a youth, I spent the greater 
part of every summer and holiday traveling around the Western 
United States, hiking, camping, fishing, and boating in many of 
the public lands and waters and parks in those States. My 
father was an avid fishermen. My mother is an amateur 
naturalist and a lover of animals. Their interests imparted in 
me a lifelong devotion to the very lands, resources, and waters 
that we manage at the Department of the Interior.
    Secondly, throughout my life I have enjoyed participating 
in team sports, at times as a member and at other times as a 
captain of the team. My experience in sports has influenced how 
I work as a lawyer. I have a reputation for being fair and a 
good listener. I freely give credit to those who do the work 
and deserve the praise. I prefer resolution to conflict, but I 
am prepared to rest on principle where it is appropriate. I 
enjoy debate but eschew ad hominem attack. I prefer action over 
inaction, and I believe that communication is central to our 
ability to successful in our endeavors.
    I thank you again for honoring me with this opportunity 
today. Should you support my nomination and the Senate votes to 
confirm me, I pledge to carry out my responsibility with 
dedication and integrity.
    I am ready to answer the questions you might have.
    [The prepared statement of Ms. Wooldridge follows:]

 Prepared Statement of Sue Ellen Wooldridge, Nominee To Be Solicitor, 
                       Department of the Interior

    Mr. Chairman, Senator Bingaman and members of the Committee, I am 
honored to appear here today as President Bush's nominee to be the 
Solicitor of the Department of the Interior. I ask for your consent to 
the President's nomination.
    As the chief legal officer for the Department, the Solicitor plays 
an important part in the management of the complex responsibilities 
entrusted to the Department of the Interior. The Solicitor also must be 
able to provide unbiased and intellectually honest counsel to the 
Secretary and subordinate officers of the Department. I thank you for 
this opportunity to present my views and qualifications for this 
position.
    For the past three years, I have served as Secretary Norton's 
Deputy Chief of Staff and Counselor, providing the opportunity for 
first-hand experience and a birds-eye view of the complex and often 
conflicting legal and policy issues` facing the Department. As 
Counselor, I have managed multiple matters spanning the varying 
interests and jurisdictions of the numerous bureaus of this agency. I 
have also acted with oversight responsibilities for the Secretary's 
Office of Indian Water Rights
    I have been intimately involved in issues affecting the Klamath 
Basin. Within the Basin, the Department of the Interior's jurisdiction 
touches the management of important facilities and lands, or impacts 
the trusts of Indian Nations and peoples--five National Wildlife 
Refuges, five Indian tribes, one reach of a Wild and Scenic River, 
lands managed by the Bureau of Land Management, one National Park, a 
large Bureau of Reclamation irrigation project, a number of endangered 
or threatened species, and several national forests. Working through 
the issues in the Klamath Basin has exemplified for me the need to work 
cooperatively, as we embrace our multiple responsibilities. We must 
reach balanced solutions that meet our serious and important legal 
obligations, while being mindful of the real social, cultural, and 
environmental impacts of our decisions.
    While the Klamath Basin problems are an example, they are not 
unique. Managing the Department of the Interior and its bureaus is 
often a balancing act, which demands a careful and reasoned response to 
competing interests and legal obligations. While I have not had 
operational responsibility for any bureau or office within Interior, 
the characteristics needed to fulfill the role of Solicitor are clear 
to me--sound judgment, courage, an open mind, administrative 
experience, wide-ranging legal experience, patience, and a sense of 
humor. I have these characteristics and am qualified to perform as 
Solicitor of the Department of the Interior.
    The Solicitor manages an operation involving thousands of 
administrative and judicial matters and hundreds of attorneys and 
supporting staff. While particular resource matters may receive an 
enormous amount of press and public attention, much of the work 
performed by dedicated staff of the Office, though low in profile, is 
ongoing and remains important to the Department and those involved. The 
Office of the Solicitor considers matters relating to labor and 
employment, ethics and conflicts of interest, patents and trademarks, 
procurement contracts, acquisition agreements, water contracts, tort 
claims, partnership and volunteer agreements, and opinions and 
correspondence. In addition to my current work at the Department, my 
previous work experience has given me a background in many of these 
areas.
    I have been in private practice, both as an associate and as a 
partner of a law firm. My practice included litigation in State and 
Federal courts and included, but was not limited to, contracts 
interpretation and enforcement, business torts, trademark infringement, 
labor and employment matters, and trust management enforcement.
    I also worked for the State of California at the Department of 
Justice and for the State's Fair Political Practices Commission. While 
with California's Department of Justice, my work covered several legal 
specialties--the areas of public rights enforcement, non-profit 
charitable institution conversions, insurance insolvency actions, State 
constitutional privacy litigation, qui tam/false claim litigation, 
initiative and referendum litigation, and equal protection challenges. 
At the Commission, as the general counsel, I oversaw the legal 
department's work in the area of conflicts of interest and campaign 
finance reporting.
    That concludes my summary of my professional experience. As I am 
here today to ask your consent to my nomination, let me tell you 
something about my personal side.
    I was born in Riverside, California, lived until I was nine in 
Carpenteria, (Southern) California, and until I was eighteen in Glenn 
County, (Northern) California. I was born the youngest of four children 
to Robert and Patricia Wooldridge. Both were public educators, which 
meant that I received great guidance and their time. We were lucky to 
be in a position to partake of travels all over the West, particularly 
in the summer when the family could take advantage of this country's 
great natural resources. During these special times, I had the 
opportunity to enjoy our National Parks and other public lands, which 
are so important to our understanding of which we are as a nation and 
the values we all hold dear. I have hiked in our monuments, ridden 
horses in our forests, camped alongside clear cold alpine lakes and 
water-skied on many Reclamation reservoirs. I have viewed the beauty of 
the Grand Tetons and looked in awe up Yosemite Valley and Hetch Hetchy. 
I have enjoyed visits to Indian Country in Arizona and Montana, camped 
in freezing cold in New Mexico, fished in cool streams teeming with 
trout in Idaho, and gone crabbing in Oregon and clamming in Washington. 
I realize today how important those travels were to my understanding of 
the importance of our obligation to be wise stewards of the public's 
lands and resources.
    Through my travels and under my parents' tutelage, I developed an 
appreciation of the need for wise management and conservation of our 
natural resources and our obligation to lives other than our own. My 
parents owned a small farm in Northern California. We raised chickens, 
cows, sheep, horses and geese; and we raised milo for a nearby dairy. 
Growing up in a rural agricultural community teaches many things, not 
the least of which is the necessity to nurture the environment that 
sustains us. It teaches responsibility and consistency. These, too, are 
qualities a Solicitor should bring to the position.
    I will always be grateful to my Mother and Father for giving me 
that special and wonderful upbringing and with providing me with my 
sense of responsibility.
    Should this Committee support this nomination, and should the 
Senate vote to confirm me, I pledge to carry out my responsibilities 
with dedication and integrity. Thank you for your consideration. I 
stand ready to answer any questions you may have.

    Senator Thomas. Thank you very much. Well, if you have 
dealt with the dog issue and the parking, why, you are ready, 
are you not?
    [Laughter.]
    Ms. Wooldridge. They in some ways were much worse than 
those others.
    Senator Thomas. Well, we are delighted that you are here. I 
mentioned Tom Sansonnetti. Bill Myers is also someone that has 
some connection with Wyoming, as you may know.
    Ms. Wooldridge. Yes.
    Senator Thomas. I hope that there are not as many cases as 
there have been, but I suspect there will continue to be. I am 
one who believes that many of these land use, particularly, and 
environmental issues should be handled other than in the 
courts. Nevertheless, many are and so on.
    One currently that is difficult is the snow machine thing 
in Yellowstone Park, where currently, as I understand it, there 
is still some tension between the court here and the court in 
Wyoming, and it kind of leaves the park without any assurance 
of where they are going to be. Quite frankly, I just wrote to 
the Secretary urging that they go ahead with a plan so that 
people can know what is going to happen next season, even 
though this season is over.
    Do you have any reaction to that kind of an arrangement 
with the courts?
    Ms. Wooldridge. Well, I think it is unfortunate that we 
have two conflicting orders that we are trying to obey. I think 
that our goal at this point is to try to get something in place 
so that there is certainty for the communities and the people 
who are interested in that issue.
    Senator Thomas. I hope so.
    I introduced a bill today, as a matter of fact, which says 
in essence that when there is an interest in something in the 
public lands that is in a particular area, that the court in 
that area should be the court that deals with it, at least in 
that circuit. So I do not know where we will go with it, but we 
are going to try and do something.
    How do you react to that?
    Ms. Wooldridge. I think it is an interesting issue. I have 
not given a huge amount of thought to it, but I think it would 
be an interesting proposition to look into.
    Senator Thomas. I hope so.
    Well, we are also, of course, in a difficult situation with 
respect to doing something with abandoned mine lands. We had a 
hearing here this morning. It is an interesting thing in that 
we have a law that will expire this year. In the law it says 
half of the fee is supposed to be back to the State. That has 
not been the case. So we are trying to work that out. I guess 
it is not a legal issue at this point, but we certainly are 
looking forward to some assistance from the Department.
    The administration has a bill in I think, as a matter of 
fact, that is oriented toward Pennsylvania when the basic 
dollars for this proposition come from the West.
    Ms. Wooldridge. I understand.
    Senator Thomas. So we may have a little disagreement with 
the administration's point of view on that. Do you have any 
feeling about it?
    Ms. Wooldridge. No, other than the fact that I was a little 
disappointed that I guess Mr. Jarrett got everybody stirred up 
a little this morning. But, no, seriously I know that is a 
really important issue to many of the States, and I know we 
wish to work as hard as we can with you to try to come to some 
agreement because I believe our interests are mutual in this 
and we need to just figure out how to get there.
    Senator Thomas. Yes, I think that is probably true.
    Let me ask Senator Bingaman.
    Senator Bingaman. Thank you very much.
    Let me ask first about a disagreement we have had with some 
in the Interior Department about the effect of language in the 
Freedom of Information Act. The Department recently took the 
position, to justify withholding information that I had 
requested, that said there was a prior Solicitor's 
interpretation of the Freedom of Information Act that gave them 
authority to withhold information from Members of Congress. I 
asked Secretary Norton about this when she testified last 
month. She apologized for that position, as I understood her 
comments, and said that they would be responding more rapidly 
and completely to future questions.
    Do you agree that the Freedom of Information Act does not 
give the Department authority to withhold information from 
Congress whether it is the majority or the minority? And will 
you support what I understood the Secretary's position to be, 
that questions from Members of Congress need to be answered?
    Ms. Wooldridge. Senator, thank you for asking me this 
question. As I think we mentioned in the meeting I had with 
you, I was not involved in the decision that led to the writing 
of the correspondence in response to your request. I clearly 
support the Secretary's position.
    In terms of the legal aspect, I have not analyzed that. I 
would be pleased to do so with you or your staff, if I am 
confirmed as Solicitor.
    Senator Bingaman. That would be very helpful. I think it 
would be good if there is a disagreement about what the law 
authorizes the Department to do in the withholding of 
information from Congress, we need to know that and take action 
to change the law, if the support were there.
    Let me ask also or just maybe flag for you a concern many 
of us have had, that major policy announcements out of the 
Department seem to come out on Friday afternoons or on the eve 
of a holiday, with no notice to any of us in the Congress or 
our staffs that they are coming. Obviously, we would appreciate 
any kind of commitment or promise you could make to consult 
with us on significant matters. I am not talking about the 
insignificant ones, but consult with us prior to finalizing 
those actions so that we have some idea that this is going to 
be forthcoming. Is that something you could agree to do?
    Ms. Wooldridge. Well, I think that as a matter of courtesy, 
we should be informing you as to when we make these decisions. 
I do not believe I am prepared to say that we should not go 
forward with them if we have not effectively communicated, but 
if we are doing our jobs properly, we should be effectively 
communicating. So when those decisions are made, you should be 
aware of them, even if you are not necessarily in support of 
them or happy with them.
    Senator Bingaman. No, I understand. I am not suggesting you 
change the decisions, but I am just urging that we have better 
information as to the timing of your decisions.
    One other area. In your present position at the Department 
of the Interior, you are responsible for the Indian water 
rights settlement program. Is that right?
    Ms. Wooldridge. I am the counselor. We have a director of 
that office and I am the liaison, as the counselor to the 
Secretary, with regard to that office.
    Senator Bingaman. Well, as you know, we have a number of 
very active water rights adjudications in New Mexico that 
involve Indian water rights claims, and there are some active 
negotiations going on with regard to some of those. I have 
heard concerns by some of the negotiating parties that the 
Department of the Interior has not taken an active role in 
settlement discussions, and this leaves the parties with no 
real guidance as to what will constitute an acceptable 
settlement from the point of view of the administration.
    If you are confirmed by the Senate, you obviously will 
continue to have a role with respect to these negotiations. 
Just from my own perspective, there is a great benefit in 
trying to get some of these cases settled, particularly those 
that have been pending for several decades. I would hope that 
in your new role, after confirmation, you would take an active 
part in trying to move negotiations along. I think the 
Solicitor could do a great deal to accelerate this process if 
that were a priority.
    Ms. Wooldridge. I think that I can certainly say that we 
will do everything to try to move them along appropriately. I 
think you referenced the Aamodt settlement and we are at a 
point where we need to analyze the cost share for the Federal 
Government. That is always a difficult problem. It takes some 
time getting through our process. But we would be happy to work 
expeditiously on that.
    Senator Bingaman. That would be very helpful.
    One other question. We had an issue come up with regard to 
a bill that I had introduced and Senator Domenici cosponsored 
on the Ojito Wilderness just the other day. What the issue 
really came down to--as I understood the Department's 
position--was that the administration would not support that 
legislation. The BLM would not support it unless we were to go 
and define in some detail the specific parameters of the trust 
duties that the Government would owe or the Secretary would owe 
to the tribe in the specific legislation.
    Now, this was a break from the way I had understood it was 
always done before. I know there is a great deal of case law 
laying out what the trust duties of the Secretary are.
    Do you think that it is necessary for us to be legislating 
specifically what those trust duties are with regard to each 
piece of land that might be involved with transfer to an Indian 
tribe?
    Ms. Wooldridge. I think this question is a very important 
one both for Congress and for the Department. As you know, we 
have been trying to get a grip on that, both in the Cobell case 
and in other matters. We have been recently twice before the 
Supreme Court on this question.
    To answer that specifically would probably be most improper 
for me since I am not aware of the legislation or what our 
position was on that legislation. But Congress does have 
plenary authority over Indian matters, and I think it is 
certainly easier as the executive to understand our precise 
duties, as we go in to try to manage something, than it is to 
have that be unclear. Beyond that, I think I should not speak 
because I am not quite sure that I have a full understanding of 
it.
    Senator Bingaman. Well, this is something I think we will 
probably revisit after your confirmation because it is a major 
change from the policy that has been in place in the 21 years I 
have been here in this committee. If we are to write that into 
each piece of legislation, that would be a substantial change 
in what is required.
    Ms. Wooldridge. Well, I would look forward to working with 
you and your staff on that.
    Senator Bingaman. All right. Thank you very much. Thank 
you, Mr. Chairman.
    Senator Thomas. Yes, sir.
    I guess many of the issues we talk about are at least 
partly policy issues and not entirely legal issues, but 
nevertheless they are sort of intertwined. For instance, the 
wolf delisting situation we are in now in Wyoming and Montana 
and Idaho, which at least appears currently to be up in court. 
The issue really is how do we get this animal delisted and get 
it under the control of the State and be able to control the 
numbers.
    Do you have any feeling----
    Ms. Wooldridge. No. My general feeling is, Senator, that we 
all have the same purpose in mind, which is to ensure that the 
communities are protected, that the wolf continues on its 
recovery, and that local communities have some ability to try 
to be a part of that management. So I think good will and more 
work will get us there. Hopefully we can resolve this without 
much litigation.
    Senator Thomas. Well, I hope so. The message we get from 
the Department, of course, is that they are unwilling to put 
together a plan that has the predator aspect to it because they 
would fail in court to be able to sustain that position. Is 
that your point of view?
    Ms. Wooldridge. I am sorry. Now you have gone beyond my 
level of competence. It has not been one that I have had any 
decisionmaking authority on.
    Senator Thomas. Well, see if you can wolf up on it a 
little.
    [Laughter.]
    Ms. Wooldridge. I will wolf up on that. Thank you.
    Senator Thomas. Also, of course, the same thing in terms of 
permitting for oil and gas production and so on ends up often 
in the courts with the environmentalists moving forward. We are 
having some of that with the coal methane in the Powder River 
basin. Again, we need to resolve these things as much as we can 
and move forward. It just seems like every difficult issue ends 
up, well, we are going to sue or we are in court, and then 
nothing happens. It is just really frustrating.
    Ms. Wooldridge. Well, I understand that, Senator. We would 
be happy with less litigation as well.
    Senator Thomas. Or more timely. If they are going to have 
litigation, let us get on with it so we can get some decisions 
made.
    One of the difficulties in agencies, I suppose, is the 
decisions that are often made at the high levels. It takes a 
while to get them on the ground and get things happening.
    We have another, Martin's Cove, a lease out there that has 
been very controversial. We finally decided to do a lease, but 
it has been a long time and the lease still is not done.
    Again, I recognize I am talking more about issues than the 
legal aspect of it, but you all are part of that. I do not know 
about the land part of it. I am on the Indian Affairs Committee 
and land trust things, the division, multiple ownership of 
those lands and so on. It has been going on now for how long?
    Ms. Wooldridge. Well, the fractionation is an enormous 
problem that I know a lot of people have been trying to work on 
for a long time.
    Senator Thomas. We do not seem to be making much progress. 
At least it is hard to determine that that is the case.
    Well, there are a lot of issues that you will have to deal 
with, of course, and I think I am very impressed with your 
background here. I was telling someone you are from Denver, but 
you are not from Denver.
    Ms. Wooldridge. No, I am not.
    Senator Thomas. From California.
    Ms. Wooldridge. I was born in Riverside, California and 
raised in the northern part of California.
    Senator Thomas. How long have you been with the Secretary?
    Ms. Wooldridge. I have been with her since January 31, the 
day she was sworn in.
    Senator Thomas. Oh, I see. As what? Chief of staff?
    Ms. Wooldridge. As the Deputy Chief of Staff and Counselor. 
I got to know her when I was in the California Attorney 
General's office and she was the Attorney General of Colorado.
    Senator Thomas. So we have got lots of legal stuff going on 
there in the office.
    Ms. Wooldridge. That is right.
    Senator Thomas. Well, I am sure that the chairman and 
others who were not able to be here may have some questions for 
you and we will, of course, leave the record open. Should you 
get some written questions, we hope you will promptly respond 
to those.
    Ms. Wooldridge. I absolutely will, Senator. Thank you for 
holding this hearing for me today.
    Senator Thomas. We will seek to move as quickly as we can 
to get you in position.
    Ms. Wooldridge. All right. Thank you so much.
    Senator Thomas. Thank you for being here.
    The committee is adjourned.
    [Whereupon, at 2:57 p.m., the hearing was adjourned.]

    [The following letter was received for the record:]

                  Association of California Water Agencies,
                                     Sacramento, CA, March 8, 2004.
Hon. Pete Domenici,
Chair, Energy and Natural Resources Committee, U.S. Senate, Washington, 
        DC.
Hon. Jeff Bingaman,
Ranking Member, Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.
    Dear Chairman Domenici and Ranking Member Bingaman: The Association 
of California Water Agencies (ACWA) is pleased to support the 
President's nomination of Sue Ellen Wooldridge to serve as Solicitor 
for the U.S. Department of the Interior.
    Over the past three years, Ms. Wooldridge has played a critical 
role inside Secretary Norton's office in guiding the Department. She 
has built a distinguished record of public and private service in the 
resources field. With a strong working knowledge of the Congressional 
and stakeholder processes that guide the Department, she is a superb 
candidate for work in the Solicitor's office.
    Our association is confident that Ms. Wooldridge can work 
successfully with a wide variety of interests to create policies that 
will address the water, environmental, and other resource issues facing 
California and the West. We pledge to work with her, the rest of the 
Bush Administration and Congress should she be confirmed.
    We respectfully request your approval of this nomination.
            Sincerely,
                                         David L. Reynolds,
                                       Director of Federal Affairs.

                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                           Office of the Secretary,
                           U.S. Department of the Interior,
                                    Washington, DC, March 18, 2004.
Hon. Pete Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: Enclosed you will find my responses to written 
questions following my confirmation hearing held on March 11, 2004.
    If I can be of further assistance, please let me know.
            Sincerely,
                                      Sue Ellen Wooldridge,
                                               Solicitor-Designate.
[Enclosure.]

                     Question From Senator Domenici

    Question. The Endangered Species Workgroup in the Middle Rio Grande 
has been engaged in developing a recovery program for the silvery 
minnow and other endangered species for many years. While I agree that 
integrated and jointly agreed to efforts help to limit litigation and 
have the promise of more cohesive, long-term solutions, I have been 
concerned with the pace of activity of this group. Consequently, I have 
created an ``executive committee'' to oversee the decision processes 
and hopefully focus the group's efforts. The US Bureau of Reclamation 
has also placed an experienced and responsive leader in the district to 
avoid a situation similar to what happened in the Klamath--a situation 
you know very well. We need action from this workgroup and we need it 
sooner rather than later.
    Can you provide me assurance that you will do whatever you can to 
help this new executive committee and the workgroup live up to its 
mission?
    Answer. Yes. If confirmed, I will work in the Department of the 
Interior to ensure appropriate leadership in this area.

                    Questions From Senator Bingaman

    Question 1. Are there any Solicitor's Opinions that you think need 
to be revisited? What Solicitor's Opinions do you expect to review 
during the remainder of FY04 and FY05? Please provide a list. What 
criteria will you use in determining whether an opinion should be 
modified, withdrawn, or reversed?
    Answer. I have no plans at this time to review any Solicitor's 
Opinions. If legal matters arise that may necessitate my review of 
previous Solicitors' Opinions, I will evaluate such matters on a case-
by-case basis.
    Question 2. Will you consult with an affected Indian Tribe before 
modifying or withdrawing a Solicitor's Opinion that affects that Tribe?
    Answer. When appropriate, I will consult with an Indian Tribe 
before modifying or withdrawing a Solicitor's Opinion that directly 
affects that Tribe.
    Question 3. Will you consult with an affected Indian Tribe before 
settling litigation that affects that Tribe?
    Answer. When appropriate, I will consult with an Indian Tribe 
before settling litigation that directly affects that Tribe.
    Question 4. Please describe for the Committee your views regarding 
the role of the Solicitor within the Department?
    Answer. I view the role of the Solicitor as being the chief legal 
officer of the Department. In that capacity, the Solicitor serves as 
the principal legal adviser to the Secretary and is responsible for all 
legal work in the Department, except that delegated to the Office of 
Hearings and Appeals, the Inspector General, the Legislative Counsel, 
and the Justices of American Samoa.

                      Questions From Senator Wyden

                             FOIA REQUESTS

    Question 1. For several years now, various bureaus at Interior have 
claimed they can ignore requests for information from Senators on this 
Committee, unless requested by the Chairman. Interior treats 
information requests from other Senators on the Committee as if the 
Senators' requests were made under the Freedom of Information Act 
(FOIA). The legislative history for FOIA offers no justification for 
withholding information from Congress; controlling court decisions have 
ruled that all members of Congress have constitutionally recognized 
rights to seek information from executive branch agencies that they 
need to carry out the responsibilities of legislation and oversight.
    Ms. Wooldridge, if you're confirmed as the Interior Solicitor, will 
you follow the law or Interior policy when it comes to responding to 
information requests from me?
    Answer. If confirmed, I will review the Department's existing 
policies and consult with the Department of Justice (DOJ) to ensure 
that the Department's procedures concerning document requests from 
Members of Congress comply with the law and applicable DOJ guidelines.

                         CHEMAWA INDIAN SCHOOL

    Question 2. Indian Health Services issued reports to the Bureau of 
Indian Affair on December 5, 2002, October 16, 2001, and September 9, 
2000 indicating that the practices regarding detention of students in 
holding cells located on the Chemawa Indian School Campus were unsafe. 
These reports clearly state that incarcerating intoxicated students 
without properly trained healthcare professionals to evaluate and 
monitor them places these students in danger. Many of the students on 
the Chemawa campus suffer from substance abuse problems and mental 
health issues. Despite the demonstrated need there is no after hours 
access to this type of care.
    Would the Department of the Interior be better able to meet its 
obligations to the students at the Chemawa Indian School if an 
infirmary, staffed twenty-four hours a day by registered nurses with 
experience in drug and alcohol abuse, was established on the campus?
    Answer. I have not been involved in this matter in my current 
capacity. However, it is my understanding that the Department's Office 
of the Inspector General is currently investigating this matter. 
Furthermore, I am advised that the Assistant Secretary for Indian 
Affairs is also looking into the policies of all offreservation 
boarding schools to better meet the needs of Indian students. These 
investigations may result in management practice or staffing changes to 
address this problem.

                     J. STEVEN GRILES INVESTIGATION

    Question 3. Ms. Wooldridge, allegations have been raised regarding 
ethical violations by Interior Deputy Secretary J. Steven Griles. You 
may also be aware, that I and other Senators have asked the Interior 
Department inspector general to investigate these allegations. It 
appears from documents released by the Interior Department that you 
were advising Mr. Griles on his ethics agreements and severance payment 
agreements with his former firm, National Environmental Strategies.
    Given that Mr. Griles and other top-level DOI officials have had 
ethical problems and given that the solicitor's office now oversees the 
Interior Department Ethics office, how will you ensure that all ethics 
agreements and recusal agreements are being enforced?
    Answer. In 2001, the Department's Ethics Office was primarily a 
policy office, reporting to the Assistant Secretary for Policy, 
Management and Budget (ASPMB). At that time, ethics advice was given in 
a bifurcated manner, with the ethics office providing policy advice and 
the Solicitor's Office, Division of General Law, providing legal 
advice. The Inspector General previously performed a management 
analysis and suggested that ethics advice is primarily a legal function 
and, therefore, recommended that the office be housed within the Office 
of the Solicitor. Subsequently, the Designated Agency Ethics Official 
(DAEO), in consultation with the Inspector General, the Office of 
Government Ethics, and the Office of the Secretary, performed an 
organizational study to determine whether realignment of the ethics 
function was appropriate. Ultimately, the Secretary decided that the 
ethics function should be moved from ASPMB to the Office of the 
Solicitor. While a Secretary's Order memorializing this change was 
issued in August 2003, the management improvements identified in the 
study and discussed more specifically below were already underway.
    Over the past two years the Department has put into place and 
continues to refine a number of significant internal controls designed 
to ensure that ethics and recusal agreements are being enforced. For 
instance, with regard to Deputy Secretary Griles, some of the changes 
we have instituted include: the DAEO and Deputy DAEO have access to his 
calendar, the person who performs his formal screening functions has 
been changed, all persons who perform those functions for the Deputy 
Secretary have been trained in their duties, and there is a weekly 
meeting with, among others, the DAEO, the Deputy Chief of Staff and the 
Deputy Secretary's scheduling personnel to analyze upcoming meetings 
and events on his calendar.
    Additionally, the DAEO has succeeded in raising employees' 
awareness of the need to consult with the ethics office on a regular 
basis to address questions of concern. As a result, the Department's 
ethics office is now viewed as a critical resource in providing 
guidance, advice, and formulating policy.
    In furtherance of its efforts to raise the profile and awareness of 
its many functions, the Ethics Office prepared and delivered 
specialized training for all senior political employees on the use of 
recusals, screening protocols, and management controls related to 
ethics matters. The DAEO regularly meets with all Presidential 
appointees to increase the Ethics Office's visibility and to underscore 
the need for early warning and advice mechanisms related to ethics and 
recusal agreements. The DAEO ensures that all support staff reporting 
to Presidential appointees receive ethics training with particular 
attention paid to topics of common concern. Additionally, the DAEO 
established regular weekly meetings with the Chief of Staff, Deputy 
Chief of Staff, Associate Solicitor for General Law, and Counselor to 
the Secretary to discuss and address current ethics issues pending in 
the Department.
    In October 2003, the then-Director of the Office of Government 
Ethics (OGE) wrote to the DAEO, ``We recognize the significant efforts 
that you and others at Interior have made to restructure your ethics 
program in a way that will strengthen the ethics program for all 
employees at the Department. We believe that the new program structure, 
including the placement of the DAEO within the Office of the Solicitor, 
is a sound development for your Department and will provide the 
capacity to meet the challenges of running a major Departmental ethics 
program in the 21st century.''
    I am aware of the report issued on March 16, 2004, by the 
Department's Inspector General in connection with certain ethics 
matters surrounding Mr. Griles' activities as Deputy Secretary. I am 
further aware that the Inspector General's report identifies certain 
deficiencies within the Department's Ethics Office and makes 
recommendations to the Secretary to address those deficiencies. 
Finally, I am aware that the OGE concurs with the Inspector General's 
recommendations in a letter dated March 12, 2004. The OGE letter 
indicates that some reforms have been made already, such as 
transferring the Ethics Office to the Office of the Solicitor.
    If confirmed, I will work to pursue improvements in the 
Department's ethics program in light of the Inspector General's 
recommendations. I will support the efforts of the Ethics Office to 
provide sound training, guidance and advice on ethics matters to all 
employees of the Department. Furthermore, I will take the steps 
necessary to ensure that ethics agreements and recusals are enforced.

                        PIPE CORROSION STANDARDS

    Question 4. Last year, Congress requested a report from the Bureau 
of Reclamation (BOR) asking for recommendations for a more definitive 
corrosion standard regarding the most appropriate use of ductile iron 
pipe and steel pipe for a particular application. That report was to be 
delivered by March 1, 2004. It has now been rescheduled to be delivered 
in December 2004.
    Question 4a. Will the report in its final form answer the question 
as to the relative effectiveness of the alternate coatings for steel 
and ductile iron pipe?
    Answer. I am advised that the report will evaluate the 
effectiveness of coating options for steel and ductile iron pipe and 
make recommendations accordingly.
    Question 4b. Will the report provide guidelines as to the life 
cycle cost benefits for the various coatings?
    Answer. I am advised that the report will evaluate projected life 
cycle costs of alternate coatings for steel and ductile iron pipe and 
provide guidance on how best to incorporate this information into 
Reclamation's pipeline construction contracts.
    Question 5. There have been numerous reports issued by the 
Environmental Protection Agency, American Water Works Association, 
Water Industry Network, and the American Society of Civil Engineers 
that have documented the decay of our nation's infrastructure. They all 
report that $10 billion to $36 billion per year of federal money will 
be required to maintain U.S. water systems.
    Will this report undertake an independent assessment of the program 
of corrosion of metallic pipes or will it be a compilation of industry 
standards that have led to this situation?
    Answer. I am advised that the report will evaluate industry 
standards, national consensus standards, independent engineering 
studies, and performance data to develop updated guidance regarding 
corrosion protection of Reclamation pipelines-which incorporate steel 
or ductile iron pipe.
    Question 6. The oil and gas industry has been mandated to provide 
protection of metallic pipes for decades. Does the BOR intend to 
consult experts from the oil and gas industry as it prepares its 
recommendations for this report?
    Answer. I have been informed that Reclamation has reviewed the U.S. 
Department of Transportation's Office of Pipeline Safety data related 
to this issue and will evaluate other national consensus standards 
related to oil and gas pipelines. We will consider these evaluations as 
we develop our report on this issue.
    Question 7. Will there be participation of interested parties such 
as the National Association of Corrosion Engineers, utilities, and 
owners as the BOR compiles information for its report?
    Answer. I am advised that we are collecting and reviewing publicly 
available information on this issue from a wide variety of sources. We 
are contacting other owners and utilities to evaluate their experiences 
with these products. I am further advised that we have reviewed the 
National Association of Corrosion Engineers material on this issue. We 
have also employed the services of private sector corrosion engineers 
and the national Institute of Standards and Technology to assist in our 
analyses. Our final report will consider input from all of these 
sources and develop recommendations accordingly.


</pre></body></html>
